HHS/OIG, Audit - "Review of High-Dollar Payments for New
Mexico Medicare Part B Claims Processed by Pinnacle Business Solutions, Inc.,
for the Period January 1, 2003, Through December 31, 2003," (A-06-07-00087)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of High-Dollar Payments
for New Mexico Medicare Part B Claims Processed by Pinnacle Business Solutions,
Inc., for the Period January 1, 2003, Through December 31, 2003,"
(A-06-07-00087)
December 28, 2007
Complete Text of Report is available in PDF format (266 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether
Pinnacle Business Solutions, Inc.s (Pinnacle), high-dollar Medicare payments to
New Mexico Part B providers were appropriate.  Eleven of the 16 high-dollar
payments that Pinnacle made to providers were appropriate. However, Pinnacle
overpaid providers $39,539 for the remaining five payments.  A provider refunded
one overpayment of $1,048 prior to our fieldwork.  Four overpayments totaling
$38,491 remained outstanding.  We recommended that Pinnacle recover the $38,491
overpayment and consider using the results of this audit in its provider
education activities. Pinnacle agreed with the findings and recommendations.